COUNTY ATTORNEY
Fort Bend County, Texas

ROY L. CORDES, JR
County Attorney

(281) 341-4555
Fax: (281) 341-4557

July 31, 2020
VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

No. 20-50, Monica Voss v. Gregory G. Goode

Dear Mr. Harris:
The petition for a writ of certiorari in this case was docketed on July 21, 2020,
and the response is due August 20, 2020. I represent respondent Gregory G.
Goode -- an appellee in the United States Court of Appeals for the Fifth Circuit.
Pursuant to Rule 30.4 of the Rules of Court, respondent respectfully requests
a 30-day extension of time, to Monday, September 21, 2020, to file his response. The
March 19, 2020 Order Regarding Filing Deadlines, 589 U.S. --- , states that “motions
for extensions of time pursuant to Rule 30.4 will ordinarily be granted by the Clerk
as a matter of course if the grounds for the application are difficulties relating to
COVID-19 and if the length of the extension requested is reasonable under the
circumstances.” Numerous issues relating to COVID-19 have required my attention.
See, e.g., Tex. Democratic Party, et al. v. Abbott, et al., No. 19-1389 (counsel of record
for Amicus Curiae Fort Bend County, Texas). Many other matters related to COVID19 have arisen or are likely to arise. Therefore, respondent respectfully requests the
flexibility to file his response on or before Monday, September 21, 2020.
I have conferred with opposing counsel, who does not oppose this request.
Sincerely yours,
/s/ Justin C. Pfeiffer
Justin Carl Pfeiffer
CC: All other Counsel

401 Jackson St., 3rd Floor • Richmond, Texas 77469-3108

